 ER-B-99-08


         AUDIT
        REPORT

                                 HEALTH PHYSICS TECHNICIAN
                                     SUBCONTRACTS AT
                              BROOKHAVEN NATIONAL LABORATORY




 U.S. DEPARTMENT OF ENERGY
                                          May 1999
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                        DEPARTMENT OF ENERGY
                                           Washington, DC 20585
                                               May 12, 1999


MEMORANDUM FOR THE MANAGER, CHICAGO OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Health Physics Technician Subcontracts at
               Brookhaven National Laboratory"


BACKGROUND

To supplement its health physics staff, Brookhaven National Laboratory (Brookhaven) subcontracted
with a support service business (the subcontractor) to obtain the services of health physics technicians.
During the performance of these subcontracts, certain issues arose concerning per diem payments to the
subcontractor for local technicians. The objective of this audit was to determine whether Brookhaven
fully enforced the terms and conditions of its subcontracts for health physics technicians.

RESULTS OF AUDIT

Brookhaven had not fully enforced the terms of its subcontracts, and as a result, Brookhaven and the
Department paid about $288,000 more than necessary for health physics technicians. For example,
Brookhaven reimbursed the subcontractor for per diem on days when work was not performed and when
the subcontractor did not pay subsistence expenses to its technicians. Brookhaven also increased the
subcontracts’fixed reimbursement rates without adequate justification and reimbursed the subcontractor
for overtime even though the subcontract did not provide for an overtime reimbursement rate.

We recommend that the Manager, Chicago Operations Office, recover the unreasonable costs identified
in the audit and require Brookhaven to strengthen its subcontract administration practices.

MANAGEMENT REACTION

Management agreed in principle with the audit finding and recommendations. However, management
stated that additional time was needed to further examine the issues.
HEALTH PHYSICS TECHNICIAN SUBCONTRACTS AT
BROOKHAVEN NATIONAL LABORATORY


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Conclusions and Observations.................................................. 1


               Administration of Health Physics Technician Subcontracts

               Details of Finding ......................................................................3

               Recommendations and Comments ...........................................5


               Appendix

               Scope and Methodology ............................................................7
Overview

INTRODUCTION AND   To supplement its health physics staff, Brookhaven subcontracted with a
OBJECTIVE          support service business to obtain the services of health physics
                   technicians. From October 1994 through November 1998, these
                   subcontract awards had a total value of about $1.7 million. The
                   subcontracts contained fixed reimbursement rates for each labor
                   category and a per diem rate of $50 for subsistence.

                   In May 1997, Brookhaven learned that the subcontractor had claimed
                   per diem costs for technicians who lived in the local Brookhaven area
                   and, therefore, were not entitled to reimbursement of subsistence
                   expenses. At that time, Brookhaven requested its internal auditors to
                   perform a limited review of payments to the subcontractor. The internal
                   auditors identified $98,800 in per diem payments for technicians who
                   lived in the local area and recommended improvements in Brookhaven’s
                   invoice review process.

                   In response to the internal audit finding, Brookhaven agreed to improve
                   its invoice review process. However, Brookhaven determined that the
                   questionable per diem payments for local technicians were proper
                   payments to the subcontractor. When this action came to our attention,
                   we initiated a review of Brookhaven’s administration of its subcontracts
                   for health physics technicians.

                   A prior Office of Inspector General audit report, Blanket Purchase
                   Orders and Time and Material Subcontracts at Brookhaven National
                   Laboratory, dated July 1990, had found that Brookhaven did not fully
                   enforce the terms of its subcontracts. Specifically, for certain
                   time-and-material subcontracts, Brookhaven reimbursed its
                   subcontractors for periodic wage increases that were not required by the
                   subcontract terms and exceeded the maximum rates authorized in the
                   subcontracts.

                   The objective of this audit was to determine whether Brookhaven had
                   fully enforced the terms and conditions of its subcontracts for health
                   physics technicians.

                   Brookhaven had not fully enforced the terms of its health physics
CONCLUSIONS AND    technician subcontracts. Specifically, Brookhaven reimbursed the
OBSERVATIONS       subcontractor for per diem even when the subcontractor had not paid
                   subsistence expenses to its technicians. Many of these technicians were
                   local to the Brookhaven area and not entitled to subsistence expenses.
                   Brookhaven also reimbursed the subcontractor for per diem on days
                   when its technicians did not work. In addition, Brookhaven increased

Page 1                                                        Introduction and Objective
         the subcontracts’fixed reimbursement rates without adequate
         justification and reimbursed the subcontractor for overtime even though
         the subcontract did not provide for an overtime reimbursement rate. As a
         result of not enforcing the terms of its subcontracts, Brookhaven and the
         Department paid about $288,000 more than necessary for health physics
         technicians.

         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.



                                          (Signed)

                                      Office of Inspector General




Page 2                                         Conclusions and Observations
ADMINISTRATION OF HEALTH PHYSICS TECHNICIAN SUBCONTRACTS


Brookhaven Paid        Since October 1994, Brookhaven has awarded the subcontractor four
Excessive Per Diem     fixed-rate subcontracts to provide the services of health physics
                       technicians. These competitively awarded subcontracts contained fixed
                       daily rates to reimburse the subcontractor for technician labor and
                       benefit costs, the subcontractor’s administrative cost, and profit. The
                       subcontracts also contained a daily per diem rate of $50 per technician.
                       It is generally recognized that per diem is an allowance for subsistence
                       expenses such as lodging, meals, and incidental expenses. The first two
                       subcontracts defined per diem as such. The two later subcontracts did
                       not contain a definition of per diem. However, all four subcontracts
                       required the subcontractor to submit invoices that state the number of
                       days expended for work and subsistence.

                       The subcontractor claimed per diem costs for every day that its
                       technicians worked at Brookhaven, regardless of whether the technicians
                       were local to Brookhaven or whether the subcontractor had paid the
                       technicians for subsistence expenses. Brookhaven routinely reimbursed
                       the subcontractor for these claimed per diem costs.

                       In 1997, Brookhaven’s internal auditors performed a limited review of
                       the subcontractor’s invoices and questioned $98,800 in per diem
                       payments for technicians who lived in the local area. Brookhaven
                       elected not to recover these payments from the subcontractor.

                       We found the questionable per diem payments for technicians to be
                       more extensive than were identified by the internal auditors.
                       Specifically, Brookhaven had reimbursed the subcontractor about
                       $172,000 in per diem costs for local technicians and about $21,000 for
                       non-local technicians when the subcontractor had not paid subsistence
                       expenses to these technicians. As part of the $172,000, about $51,000
                       represented per diem for days on which the technicians did not even
                       work.

                       Even though Brookhaven elected not to recover the per diem payments
Brookhaven Increased   for local technicians, Brookhaven advised the subcontractor in February
Reimbursements Rates   1998 that per diem for local technicians would not be paid in the future.
                       At the same time, Brookhaven modified the subcontract to increase the
                       fixed daily rates, apparently to compensate the subcontractor for ending
                       the per diem payments for local technicians. This subcontract
                       modification increased all fixed reimbursement rates by $25 per day. In
                       addition, new labor categories with higher reimbursement rates were
                       added to the subcontract. The subcontractor then reclassified most of
                       its technicians to these new labor categories and was reimbursed at the

Page 3                                                                      Details of Finding
                           higher rates. However, the subcontractor did not increase the rates
                           paid to these technicians to reflect that they were working in new
                           labor categories. We estimated that these subcontract changes
                           increased payments to the subcontractor by about $74,000.

                           Under one of the subcontracts, the subcontractor claimed $21,000 for
Overtime Was Not           overtime. However, the subcontract did not provide for an overtime
                           rate. Nonetheless, Brookhaven did not challenge the subcontractor’s
Provided for in
                           claim and paid the overtime. The subcontractor billed an hourly rate
Subcontract
                           for this overtime that was about two-and-one-half times the hourly
                           equivalent of the daily reimbursement rate.

                           Brookhaven’s contracts with the Department require that costs must
                           be reasonable as a condition of their allowability. To ensure that
Subcontract Terms Should   costs are reasonable and that goods and services are obtained at the
be Enforced to Ensure      best available prices, the Department’s contractors should enforce the
Costs Are Reasonable       terms and conditions of their subcontracts. For example,
                           subcontractor invoices should be reviewed to ensure that claimed
                           costs comply with the subcontract, and recovery should be sought for
                           any overpayments. Furthermore, when a subcontractor is selected
                           competitively based on having the lowest quoted rates, these rates,
                           once agreed-to in a subcontract, should not be increased during the
                           term of the subcontract except in unusual circumstances. In
                           subcontracts where agreed-to fixed rates are intended to reimburse
                           the subcontractor for cost and profit, the subcontractor accepts the
                           normal business risks, such as gains or losses, that result from such an
                           agreement.

                           Insufficient review of invoices prevented Brookhaven from readily
                           observing that the subcontractor claimed per diem for days when its
Brookhaven Did Not         technicians did not work and for local technicians who were not paid
Enforce Subcontracts       subsistence. However, even after becoming aware of this condition,
                           Brookhaven elected not to enforce subcontract terms. In response to
                           the internal audit questioning $98,800 of per diem payments for local
                           technicians, Brookhaven’s Office of Laboratory Counsel (Counsel)
                           opined that the questioned per diem costs were allowable and payable
                           to the subcontractor. Brookhaven’s Counsel stated that the per diem
                           payments were proper because (1) the terms of the subcontract were
                           ambiguous as to when per diem was to be paid, and (2) the
                           subcontractor had lost money on the subcontract.

                           We do not consider the ongoing subcontract arrangement between


Page 4                                                                        Details of Finding
                            Brookhaven and the subcontractor to be ambiguous as to when per
                            diem should be paid. Although the two later subcontracts did not
                            define "per diem," its meaning as an allowance for subsistence is
                            generally understood and was stated in the two prior subcontracts.
                            Furthermore, the subcontracts required invoices to state the number
                            of days actually expended for subsistence. In our opinion, it was
                            improper for the subcontractor to claim per diem for days when the
                            subcontractor did not pay subsistence to its technicians or for days
                            when technicians did not work. Therefore, the per diem should not
                            have been allowed.

                            Counsel’s argument that the subcontractor sustained a loss on the
                            subcontract was neither supported nor relevant. The belief that the
                            subcontractor sustained a loss was apparently based on a limited desk
                            review of unaudited subcontractor data performed by a Brookhaven
                            procurement specialist. Nevertheless, these subcontracts were
                            fixed-rate subcontracts by which the subcontractor agreed to fixed
                            reimbursement rates for cost and profit and, therefore, accepted the
                            risk of loss that could result from such an agreement. Brookhaven
                            had selected this subcontractor because the subcontractor had
                            consistently quoted the lowest rates. The subcontracts did not
                            provide for rate increases, and the subcontract terms should have
                            been enforced even if the subcontractor had incurred a loss.

                            As a result of Brookhaven not enforcing the terms and conditions of
                            its subcontracts, the Department paid about $288,000 more than
Department Paid More        necessary for health service technicians. We consider these costs to
Than Necessary for Health   be unreasonable and, therefore, unallowable under Brookhaven’s
Service Technicians         contract with the Department. In addition, Brookhaven did not give
                            other support service businesses an opportunity to competitively bid
                            lower rates on the subcontract work when the reimbursement rates
                            were increased or new labor categories were added.

                            We recommend that the Manager, Chicago Operations Office:
RECOMMENDATIONS                 1.   Recover the unreasonable costs identified in this audit, and

                                2.   Require Brookhaven to strengthen its subcontract
                                     administration to hold subcontractors to the terms and
                                     conditions of subcontracts.




Page 5                                                     Recommendations and Comments
MANAGEMENT         Management stated that it tentatively agreed in principle with the audit
REACTION           finding and recommendations. However, management stated that
                   additional time was needed to further examine the issues and the systems
                   and internal controls in place, in order to determine what appropriate
                   actions may be required. Management further stated that the issues and
                   actions are complicated by the fact that the period of performance
                   covered by the subcontracts in question spanned two management and
                   operating contractors.

                   We consider management's comments to be responsive. However,
AUDITOR COMMENTS   management did not establish a corrective action plan or an expected
                   date of completion.




Page 6                                              Recommendations and Comments
Appendix

SCOPE         The audit was performed from November 1998 to March 1999 at
              Brookhaven National Laboratory in Upton, New York and at the
              subcontractor’s office. The four subcontracts for health physics
              technicians covered in our audit were:

              Subcontract           Periods of            Subcontract      Costs Claimed
               Number              Performance              Value       (Through Nov. 1998)
                740533      October 1994 to August 1995     $ 40,164       $    40,116
                724619       January 1995 to June 1995        22,966            22,341
                770880       August 1995 to July 1997        446,925           441,442
                837655       April 1997 to March 1999      1,160,000        1,077,835
                Total                                     $1,670,055       $1,581,734


              To accomplish the audit objective, we:
METHODOLOGY
              • Reviewed subcontract terms and conditions;
              • Reviewed Federal and Department regulations relevant to the
                administration of subcontracts and allowability of costs;
              • Interviewed Department, Brookhaven, and subcontractor
                representatives;
              • Analyzed the subcontractor’s billings and Brookhaven’s payments;
              • Reviewed accounting records and supporting documentation
                maintained by Brookhaven and the subcontractor; and
              • Reviewed Brookhaven’s internal audit workpapers.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, we assessed
              the significant internal controls and performance measures established
              under the Government Performance and Results Act related to
              Brookhaven’s enforcement of the terms and conditions of its
              subcontracts for health physics technicians. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. Our review
              did not rely on computer processed data.




Page 7                                                         Scope and Methodology
                                                                               IG Report No. : ER-B-99-08

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig
                                                 or
                                       http://www.ma.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
